                  U.S. Department of Agriculture

                     Office of Inspector General
                                Northeast Region




         Audit Report

Food Safety and Inspection Service
  Oversight of the 2004 Recall by
     Quaker Maid Meats, Inc.




                        Report No. 24601-04-Hy
                                     MAY 2005
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




May 18, 2005

REPLY TO
ATTN OF:       24601-04-Hy

TO:            Barbara J. Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement, and Review

FROM:          Robert W. Young       /S/
               Assistant Inspector General
                 for Audit

SUBJECT:       Food Safety and Inspection Service Oversight of the 2004
               Recall by Quaker Maid Meats, Inc.


This report presents the results of our audit of the Food Safety and Inspection Service’s oversight of
the 2004 recall by Quaker Maid Meats, Inc. Your response to the official draft, dated May 5, 2005, is
included as exhibit A. Excerpts of your response and the Office of Inspector General’s (OIG) position
are incorporated into the Findings and Recommendations section of the report. Based on your
response, we were not able to reach management decision on the report’s two recommendations.
Management decision can be reached once you have provided the additional information outlined in
the report section OIG Position.

In accordance with Departmental Regulations 1720-1, please furnish a reply within 60 days describing
the timeframes for implementing the planned corrective actions. Please note that the regulation
requires management decision to be reached on all recommendations within 6 months of report
issuance.
Executive Summary
Food Safety and Inspection Service’s Oversight of the 2004 Recall by Quaker Maid
Meats, Inc. (Audit Report No. 24601-04-Hy)

Results in Brief                     This report presents the results of the Office of Inspector General’s (OIG)
                                     audit of the Food Safety and Inspection Service’s (FSIS) oversight of the
                                     recall by Quaker Maid Meats, Inc. (Quaker Maid). On July 28, 2004, Quaker
                                     Maid initiated a recall of approximately 170,000 pounds of ground beef
                                     patties from U.S. commerce due to mislabeling. The ground beef patties
                                     were made, in part, from 41,000 pounds of finely textured beef trim (meat
                                     scavenged from beef taken off the bone at high pressure) from Canada. This
                                     type of product was not eligible to be imported into the United States.
                                     following the detection of a Canadian cow with bovine spongiform
                                     encephalopathy in May 2003. The beef patties had been shipped to 474
                                     distribution centers and stores in Florida, Maine, Maryland, New Jersey, New
                                     York, North Carolina, Pennsylvania, South Carolina, Virginia, and
                                     Wisconsin. According to information reported by Quaker Maid, the recall of
                                     the beef patties subsequently resulted in the recovery of over 93 percent of
                                     the ineligible product.

                                     Establishments 1 initiate recalls to remove mislabeled products from
                                     commerce. FSIS is responsible for overseeing all recall activities by the
                                     establishments. According to procedures, 2 FSIS compliance officers perform
                                     a specific number of effectiveness checks to verify that the recalling
                                     establishment has been diligent and successful in notifying and advising the
                                     consignees 3 of the need to retrieve and control recalled product and that the
                                     consignees have responded accordingly. The compliance officers record the
                                     results of their verifications on FSIS Form 8400-4, Report of Recall
                                     Effectiveness.

                                     In 2003 and 2004, OIG issued three reports that were critical of FSIS’
                                     oversight of meat and poultry recalls. 4 In response to our recommendations,
                                     FSIS agreed to implement a management control process to ensure that FSIS
                                     district managers comply with recall procedures and that compliance officers’
                                     determinations are reviewed, analyzed, and acted on. FSIS also agreed to
                                     reassess its policies and procedures for managing the recall process. This
                                     included establishing criteria to ensure that required effectiveness checks are
                                     completed and to determine whether recalls are effective.

1
    Establishments are the FSIS-regulated facilities that produce meat and/or poultry products.
2
    FSIS Directive 8080.1, Revision 4, Recall of Meat and Poultry Products, dated May 24, 2004.
3
    Consignees are distribution centers and stores that received product from the recalling establishment.
4
    This work included: (1) Audit Report No. 24601-02-KC, “FSIS Oversight of Production Process and Recall at ConAgra Plant (Establishment 969),”
    issued September 30, 2003, (2) Audit Report No. 24601-02-Hy, “FSIS Oversight of the Listeria Outbreak in the Northeastern United States,” issued
    June 9, 2004, and (3) Audit Report No. 24601-03-Hy, “FSIS Effectiveness Checks for the 2002 Pilgrim’s Pride Recall,” issued June 29, 2004.
USDA/OIG-A/24601-04-Hy                                                                                                                     Page i
                   According to FSIS officials, these agreed upon actions were implemented
                   through FSIS Directive 8080.1, Revision 4, Recall of Meat and Poultry
                   Products, dated May 24, 2004.

                   In August 2004, we initiated actions to evaluate the adequacy of effectiveness
                   checks performed by FSIS for the Quaker Maid recall and FSIS’ oversight of
                   this recall to include compliance with the recent revision to FSIS’ recall
                   policy. To accomplish our review, we interviewed FSIS officials and
                   examined documentation supporting the agency’s oversight of the Quaker
                   Maid recall, to include the 58 effectiveness checks performed. We also
                   contacted 7 of the 58 firms where FSIS performed effectiveness checks to
                   validate information we learned from FSIS regarding the effectiveness checks
                   performed for these firms.

                   Overall, we concluded that FSIS strengthened its procedures regarding the
                   agency’s oversight of meat and poultry recalls. We also found that FSIS
                   complied with the recent revision made to the agency’s recall policy.
                   However, we noted FSIS compliance officers did not determine the amount
                   of product purchased by consignees for 26 of the 58 effectiveness checks
                   performed for the Quaker Maid recall. This occurred because FSIS’ recall
                   policy did not provide any specific direction on identifying and evaluating the
                   amount of product purchased by consignees. In our opinion, FSIS had
                   reduced assurance that mislabeled product bearing the United States
                   Department of Agriculture seal of inspection had been retrieved from
                   commerce. However, based on the effectiveness checks that FSIS performed,
                   FSIS officials believed Quaker Maid’s assertion that the product had been
                   removed from the marketplace.

                   In November 2004, we discussed our concern with the FSIS Assistant
                   Administrator for Field Operations and the Director of FSIS’ Recall
                   Management Division. They agreed with our concern and initiated actions in
                   December 2004 to revise the effectiveness check form to require compliance
                   officers to provide an explanation when they do not determine the amount of
                   product purchased. In addition, FSIS should revise the agency’s recall policy
                   to provide specific direction on identifying and evaluating this amount and
                   when not identifying it would be considered acceptable.

Recommendations
In Brief           FSIS needs to revise FSIS Form 8400-4, Report of Recall Effectiveness, to
                   require compliance officers to explain why the amount of product purchased
                   by consignees was not identified. FSIS also needs to revise FSIS
                   Directive 8080.1 to provide specific direction on identifying and evaluating
                   the amount of product purchased by the consignees and guidance on when it
                   is acceptable to not identify this amount.

USDA/OIG-A/24601-04-Hy                                                                     Page ii
Agency Response

                   FSIS agreed with the report’s recommendations. We have incorporated
                   excerpts from FSIS’ response in the Findings and Recommendations section
                   of this report along with the OIG position. FSIS’ response is included as
                   Exhibit A.

OIG Position

                   Based on FSIS’ response, we were not able to reach management decision on
                   the report’s two recommendations. FSIS did not provide the dates when the
                   proposed corrective actions will be implemented. The Findings and
                   Recommendation section of this report provide the details of the additional
                   information needed to reach management decision.




USDA/OIG-A/24601-04-Hy                                                                Page iii
Abbreviations Used in This Report


APHIS               Animal and Plant Health Inspection Service
CFIA                Canadian Food Inspection Agency
FSIS                Food Safety and Inspection Service
OIG                 Office of Inspector General
Quaker Maid         Quaker Maid Meats, Inc.
Secretary           Secretary of Agriculture
USDA                United States Department of Agriculture
U.S.                United States




USDA/OIG-A/24601-04-Hy                                           Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. FSIS Effectiveness Checks .............................................................................................. 4

        Finding 1             Amount of Product Purchased Not Determined...................................................... 4
                                 Recommendation 1 .......................................................................................... 5
                                 Recommendation 2 .......................................................................................... 6

Scope and Methodology.......................................................................................................................... 7

Exhibit A – Agency Response ................................................................................................................ 8




USDA/OIG-A/24601-04-Hy                                                                                                                    Page v
Background and Objectives
Background                           As the public health regulatory agency of the United States Department of
                                     Agriculture (USDA), the Food Safety and Inspection Service (FSIS) is
                                     responsible for ensuring that meat and poultry products are safe, wholesome,
                                     and accurately labeled. When there is reason to believe that product may be
                                     mislabeled, the manufacturer voluntarily removes the product from
                                     commerce, through a recall. Although recalls are voluntary, FSIS oversees all
                                     recall activities by establishments. If a company refuses to recall a meat or
                                     poultry product that may cause health problems or death, FSIS has legal
                                     authority to detain and/or seize those products in commerce.

                                     According to FSIS procedures, 5 FSIS compliance officers perform a specific
                                     number of effectiveness checks to verify that the recalling firm has been
                                     diligent and successful in notifying and advising the consignees of the need to
                                     retrieve and control recalled product and that the consignees have responded
                                     accordingly. Compliance officers record the results of their verifications on
                                     FSIS Form 8400-4, Report of Recall Effectiveness.

                                      On July 28, 2004, FSIS announced that Quaker Maid Meats, Inc. (Quaker
                                      Maid), a Reading, Pennsylvania establishment, voluntarily recalled
                                      approximately 170,000 pounds of ground beef patties due to mislabeling. In
                                      the announcement, FSIS reported that the beef patties were partially made
                                      from Canadian product that was mislabeled and ineligible for import into the
                                      United States. The ground beef patties were shipped to 474 distribution
                                      centers and retail establishments in Florida, Maine, Maryland, New Jersey,
                                      New York, North Carolina, Pennsylvania, South Carolina, Virginia, and
                                      Wisconsin.

                                      The ineligible Canadian product was imported into the United States after the
                                      assigned Canadian meat inspector had gone on vacation and a substitute
                                      inspector accidentally approved the mislabeled product. The ineligible
                                      product included about 41,000 pounds of finely textured beef trim (meat
                                      scavenged from beef taken off the bone at high pressure) that is considered to
                                      be a higher-risk product by USDA’s Animal and Plant Health Inspection
                                      Service (APHIS) and thus ineligible for import into the United States. The
                                      ineligible product was mislabeled to indicate that it was an eligible product.
                                      When the regular Canadian inspector returned from vacation, he became
                                      aware of the mislabeling, notified USDA and FSIS officials, and the recall
                                      was initiated.

                                      On August 26, 2004, Quaker Maid officials reported to FSIS that the recall
                                      included a total of almost 313,000 pounds of ground beef patties, as opposed

5
    FSIS Directive 8080.1, Revision 4, Recall of Meat and Poultry Products, dated May 24, 2004.

USDA/OIG-A/24601-04-Hy                                                                                       Page 1
                                     to the 170,000 pounds initially reported by Quaker Maid. The firm
                                     determined through a review of its shipping records that almost
                                     159,000 pounds of this product had been shipped and approximately
                                     154,000 pounds had been retained in the firm’s own freezer. Quaker Maid
                                     officials reported that almost 148,000 of the 159,000 pounds distributed into
                                     U.S. commerce had been returned, just over 93 percent of the product
                                     distributed. FSIS closed the Quaker Maid recall on October 21, 2004, after
                                     the agency had completed its recall effectiveness checks and the firm had
                                     completed its plan of action to remove products from consumer channels.

                                     In May 2003, USDA closed the border to entry of Canadian cattle and beef
                                     products after the discovery of a bovine spongiform encephalopathy positive
                                     animal in Canada. On August 8, 2003, the Secretary of Agriculture
                                     (Secretary) announced a list of low-risk products, including boneless beef
                                     from cattle less than 30 months of age, which would be allowed into the
                                     United States from Canada, under certain predetermined conditions.
                                     According to the Secretary’s August 8, 2003, announcement, advanced meat
                                     recovery and mechanical separation of meat could not be used to produce
                                     boneless beef.

                                     In June 2004, we initiated several actions in response to concerns raised by
                                     four U.S. Senators that USDA did not follow appropriate safety measures,
                                     beginning sometime in the fall of 2003, in allowing expanded Canadian beef
                                     imports into the United States. We reviewed USDA’s actions pertaining to
                                     the importation of Canadian products, including the use of risk mitigation 6
                                     measures. Our results were included in Audit Report No. 33601-01-Hy,
                                     Oversight of the Importation of Beef Products from Canada, issued
                                     February 2005.

                                     In 2003 and 2004, OIG issued three reports that were critical of FSIS’
                                     oversight of meat and poultry recalls. 7 In response to our recommendations,
                                     FSIS agreed to implement a management control process to ensure that FSIS
                                     district managers comply with recall procedures and that compliance officers’
                                     determinations are reviewed, analyzed, and acted on. FSIS also agreed to
                                     reassess its policies and procedures for managing the recall process. This
                                     included establishing criteria to ensure that required effectiveness checks are
                                     completed and to determine whether recalls are effective. According to FSIS
                                     officials, these agreed upon actions were implemented through FSIS
                                     Directive 8080.1, Revision 4, Recall of Meat and Poultry Products, dated
                                     May 24, 2004.



6
    Risk mitigations include such actions as Canadian Food Inspection Agency (CFIA) verification that calves were 36 weeks of age or less when
    slaughtered and CFIA verification that animals are not known to have been fed prohibited products during their lifetime.
7
    This work included: (1) Audit Report No. 24601-02-KC, “FSIS Oversight of Production Process and Recall at ConAgra Plant (Establishment 969),”
    issued September 30, 2003, (2) Audit Report No. 24601-02-Hy, “FSIS Oversight of the Listeria Outbreak in the Northeastern United States,” issued
    June 9, 2004, and (3) Audit Report No. 24601-03-Hy, “FSIS Effectiveness Checks for the 2002 Pilgrim’s Pride Recall,” issued June 29, 2004.

USDA/OIG-A/24601-04-Hy                                                                                                                    Page 2
Objectives         Our audit objective was to evaluate FSIS’ oversight of the 2004 Quaker Maid
                   recall. Specifically we evaluated the adequacy of the effectiveness checks
                   performed by FSIS and FSIS’ oversight to include compliance with recent
                   revisions to FSIS’ recall policy.

                   To accomplish our objectives, we performed fieldwork at FSIS Headquarters
                   in Washington, D.C., and the FSIS district office in Philadelphia,
                   Pennsylvania.     We examined documentation supporting the agency’s
                   oversight of the Quaker Maid recall, to include the 58 effectiveness checks
                   performed. We also contacted seven firms that purchased the recalled
                   product to validate information we learned from FSIS regarding the
                   effectiveness checks performed for these firms. (See Scope and Methodology
                   for details.)




USDA/OIG-A/24601-04-Hy                                                                 Page 3
Findings and Recommendations
Section 1. FSIS Effectiveness Checks



Finding 1                             Amount of Product Purchased Not Determined

                                      FSIS compliance officers performed 58 effectiveness checks for the recall of
                                      approximately 170,000 pounds of ground beef patties by Quaker Maid. For
                                      26 of the 58 effectiveness checks, FSIS compliance officers did not
                                      determine the amount of product purchased by consignees, which is used by
                                      FSIS, in part, to evaluate what the recalling firm reported as entering U.S.
                                      commerce. This high error rate occurred because FSIS’ procedures for
                                      overseeing the effectiveness of recalls did not provide any specific direction
                                      on identifying and evaluating this information. In our opinion, FSIS had
                                      reduced assurance that mislabeled product bearing the USDA seal of
                                      inspection had been retrieved from commerce. However, based on the
                                      effectiveness checks that FSIS performed, FSIS officials believed Quaker
                                      Maid’s assertion that the product had been removed from the marketplace.

                                      Current recall procedures 8 explain that effectiveness checks constitute a
                                      process by which FSIS compliance officers verify that the recalling firm has
                                      been diligent in locating, retrieving, and controlling the recalled product and
                                      that product that is recalled does not remain available to consumers. One of
                                      the items that FSIS compliance officers verify when completing an
                                      effectiveness check is the amount of recalled product the consignee
                                      purchased. FSIS uses this information, in part, as a check on the amount of
                                      recalled product that entered U.S. commerce, as reported by the recalling
                                      firm.

                                      Quaker Maid distributed the recalled ground beef patties to 474 consignees in
                                      Florida, Maine, Maryland, New Jersey, New York, North Carolina,
                                      Pennsylvania, South Carolina, Virginia, and Wisconsin. As part of FSIS’
                                      oversight of this recall, FSIS compliance officers performed a total of
                                      58 effectiveness checks, as required by the agency’s recall procedures. We
                                      analyzed the 58 effectiveness checks and interviewed responsible FSIS
                                      officials and concluded that recall procedures were followed and
                                      effectiveness checks were adequately completed. However, we found that
                                      the FSIS compliance officers did not determine and document the amount of
                                      product purchased by 26 consignees on the effectiveness check form. 9

                                      On the effectiveness check forms for 26 of the 58 consignees, the FSIS
                                      compliance officers recorded the amount of product purchased as “unknown”

8
    FSIS Directive 8080.1 Revision 4, Recall of Meat and Poultry Products, dated May 24, 2004.
9
    FSIS Form 8400-4, Report of Recall Effectiveness.

USDA/OIG-A/24601-04-Hy                                                                                        Page 4
                   or “n/a.” According to FSIS officials at the Philadelphia district office,
                   compliance officers could not determine the amount of product purchased,
                   because consignees did not maintain inventory records by the lot codes
                   associated with the recalled product. Consequently, FSIS compliance
                   officers recorded the amount of product purchased as unknown. Through
                   interviews with 7 of the 26 consignees, we learned that they could identify
                   the amount of the specific lots purchased, and the FSIS compliance officers
                   did not contact the consignee officials that keep this information. We found
                   that the FSIS compliance officers generally contacted the consignees’ meat
                   managers who controlled the physical inventory of product. The meat
                   managers explained that other consignee officials, such as accounting
                   personnel, keep the detailed records on the specific lots purchased.

                   FSIS officials at the Philadelphia district office explained that they did not
                   view information on the amount of recalled product purchased by consignees
                   as critical to evaluating the effectiveness of a recall. Accordingly, in
                   November 2004, we met with the FSIS Assistant Administrator for Field
                   Operations and the Director of FSIS’ Recall Management Division to solicit
                   their views on the relevancy of this information to evaluating the
                   effectiveness of the recall. In December 2004, these FSIS officials provided
                   information on the importance of determining the amount of product
                   purchased by consignees. The amounts determined by FSIS effectiveness
                   checks can be compared to amounts reported by the recalling firm at both the
                   start and end of the recall. Furthermore, in recalls of smaller volumes of
                   product, this information is valuable in evaluating the accuracy of the amount
                   of product recovered, which could range from 0 to 100 percent of the product
                   recalled.

                   Our analysis of FSIS’ current recall procedures disclosed that they did not
                   emphasize the importance of obtaining and evaluating the amount of recalled
                   product purchased by consignees. FSIS’ Assistant Administrator for Field
                   Operations and the Director of the Recall Management Division agreed with
                   our assessment and initiated a revision to the effectiveness check form. FSIS
                   compliance officers will be required to provide an explanation when they do
                   not determine the amount of product purchased. In addition, FSIS’
                   procedures for overseeing the effectiveness of recalls should provide specific
                   direction for identifying and evaluating this amount and when not identifying
                   it would be considered acceptable.

Recommendation 1

                   Revise FSIS Form 8400-4, Report of Recall Effectiveness, to require
                   compliance officers to explain why the amount of product purchased by
                   consignees was not identified.



USDA/OIG-A/24601-04-Hy                                                                    Page 5
                   Agency Response.

                   FSIS has revised the Form, 8400-4. The revised form has specific
                   requirements for FSIS inspection personnel to provide an explanation when
                   they are unable to determine the amount of product purchased. The revised
                   form must be approved by the Office of Management of Budget.

                   In the interim, FSIS inspection personnel will continue using FSIS Form
                   8400-4 dated March 3, 2004. FSIS will issue a Notice to direct inspection
                   personnel to provide an explanation in the “Remarks” section in response to
                   the question of “Amount of Recall Product Purchased” when the answer is
                   unknown.

                   OIG Position.

                   We agree with FSIS’ proposed corrective action; however, we cannot accept
                   management decision for this recommendation. To reach management
                   decision, FSIS needs to provide the date when the Notice to inspection
                   personnel will be issued.

Recommendation 2

                   Develop and implement instructions to incorporate changes in the form used
                   by compliance officers in conducting effectiveness checks; provide specific
                   direction on identifying and evaluating the amount of product purchased by
                   the consignees; and provide guidance on when it is acceptable to not identify
                   this amount. Include the instructions that are implemented in the next
                   revision of FSIS Directive 8080.1 Recall of Meat and Poultry Products.

                   Agency Response.

                   FSIS Directive 8080.1, Recall of Meat and Poultry Products, Revision 4,
                   Amendment 1, was amended on July 29, 2004. FSIS will issue a Notice
                   which provides specific direction to FSIS inspection personnel for identifying
                   and evaluating the amount of product purchased by the consignee; and
                   provides guidance on when it is acceptable to not identify this amount. The
                   Notice will be used in the interim, and the Notice instructions will be
                   included in the next issuance of Directive 8080.1.

                   OIG Position.

                   We agree with FSIS’ proposed corrective action; however, we cannot accept
                   management decision for this recommendation. To reach management
                   decision, FSIS needs to provide the date when the Notice to inspection
                   personnel will be issued.

USDA/OIG-A/24601-04-Hy                                                                    Page 6
Scope and Methodology
                   We performed our audit at FSIS Headquarters located in Washington, D.C.,
                   and the district office located in Philadelphia, Pennsylvania. We performed
                   our audit fieldwork from August through December 2004.

                   We interviewed responsible FSIS Headquarters and district office officials to
                   obtain an understanding of how they performed their responsibilities for the
                   Quaker Maid recall.      We also reviewed the requirements of FSIS
                   Directive 8080.1, Revision 4, Recall of Meat and Poultry Products, dated
                   May 24, 2004.

                   At the Philadelphia district office, we examined all of the 58 effectiveness
                   checks performed and analyzed any other documentation obtained from
                   consignees by FSIS compliance officers. Using procedures in FSIS
                   Directive 8080.1, FSIS selected 58 firms for performing effectiveness checks
                   from the universe of 474 firms that received recalled ground beef patties from
                   Quaker Maid.

                   For 26 of the 58 effectiveness checks, the FSIS compliance officers did not
                   determine the amount of product purchased. According to FSIS officials at
                   the Philadelphia district office, compliance officers could not determine the
                   amount of product purchased because consignees did not maintain inventory
                   records by the lot codes associated with the recalled product. We contacted
                   seven firms that had product on hand at the time of the recall. We contacted
                   these firms to validate information we obtained from FSIS district office
                   officials regarding the effectiveness checks performed for these firms.

                   We conducted the audit in accordance with Government Auditing Standards
                   established by the Comptroller General of the United States.

                   To accomplish our audit objectives, we:

                   •     Reviewed FSIS policies and procedures related to the recall of meat and
                         poultry products;

                   •     Interviewed responsible FSIS and consignee officials; and

                   •     Analyzed information used by FSIS to determine the effectiveness of the
                         Quaker Maid recall.




USDA/OIG-A/24601-04-Hy                                                                    Page 7
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 2




USDA/OIG-A/24601-04-Hy                      Page 8
                         Exhibit A – Page 2 of 2




USDA/OIG-A/24601-04-Hy                    Page 9
